Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Duplicate Medicare Payments
       by Individual Carriers




                        JUNE 2001
                      OEI-03-00-00091
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                              HEADQUARTERS

Robert Katz, Project Leader                         Tricia Davis, Program Specialist
Erika Q. Lang, Program Analyst



 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei
                        EXECUTIVE SUMMARY

PURPOSE

        To determine if individual carriers made duplicate payments for the same Medicare
        Part B services.


BACKGROUND

        The Health Care Financing Administration (HCFA) contracts with private health
        insurance companies called carriers to process Medicare Part B claims. After furnishing
        a service, providers submit a claim for reimbursement to the carrier with jurisdiction over
        the service. The carrier initially processes the claim, then sends it to one of nine
        Common Working File host sites for approval. Both the carriers and the Common
        Working File host sites review incoming claims for possible duplication using certain
        criteria, such as the dates of service, provider identification number, procedure code, and
        place of service. If a claim is found to be identical to another based on these criteria, it
        should be denied.

        For this inspection, we reviewed potential duplicate services from HCFA’s 5 percent
        National Claims History file for 1998. Our analysis focused on 15 procedure codes that
        should never or rarely be billed more than once a day, and that were the subject of a
        previous Office of Inspector General study about duplicate payments made by more than
        one carrier. In this study, we examined potential duplicate services which were
        submitted for reimbursement to and paid by the same carrier. We also expanded our
        review to include all other procedure codes.


FINDINGS

Medicare carriers made potential duplicate payments in 1998

        For the 15 procedure codes that should never or rarely be billed more than once per day,
        individual carriers made potential duplicate payments involving 3,152 services in 1998.
        Questionable allowances for the 15 codes totaled an estimated $2.25 million. Individual
        carriers made an estimated $2.2 million in potential duplicate payments for an additional
        55 evaluation and management codes that should never or rarely be billed more than once
        per day. We also estimated that Medicare made $89 million in potential duplicate
        payments for 2,000 other procedure codes. However, for this latter group, it is possible
        that some of the duplicate services for these codes were appropriately billed, as we did
        not investigate their validity.

 Duplicate Medicare Payments by Individual Carriers   iii                              OEI-03-00-00091
One carrier paid for more than one-third of the potential duplicate services

            One carrier accounted for 37 percent of duplicate services for the first 15 procedure codes
            we analyzed, more than four times the number for the next highest carrier. Almost all
            carriers in 1998 made duplicate payments for the 15 procedure codes.

Carrier and Common Working File edits did not prevent potential duplicate
payments

            Carrier edits should have identified and denied 40 percent of the duplicate services for
            the 15 procedure codes. Eight percent of the duplicate services should have been denied
            based on Common Working File edits.


RECOMMENDATIONS

This inspection, combined with our previous inspection report (OEI-03-00-00090) on duplicate
payments by more than one carrier, establishes that some claims for potential duplicate services
are not being detected by Medicare carriers and the program’s Common Working File systems.

To address the vulnerabilities identified in this report, we recommend that HCFA:

<	          investigate Medicare’s claims processing systems to determine why potential
            duplicate services were not detected. Payments should be recovered for those
            services determined to be inappropriate.

<	          implement corrective edits or related measures within carrier and Common
            Working File claims processing systems to detect and prevent payments for
            duplicate services billed to the same carrier. If these measures are determined not
            to be cost effective, then conduct additional post-payment reviews, particularly for
            those carriers in which high numbers of duplicate payments were detected.

We have forwarded claims information to HCFA so they may take appropriate action regarding
the possible duplicate payments cited in this report.


AGENCY COMMENTS

            The HCFA concurred with our recommendations. In response to our first
            recommendation, the HCFA stated that they will continue to assess existing duplicate
            payment edits in the Common Working File as well as the Medicare Part B standard
            claims processing systems. The HCFA also plans to reexamine existing edits involved
            with preventing payments for duplicate services in individual carrier systems. Part of this
            examination will include an assessment of those carriers in which a high number of

     Duplicate Medicare Payments by Individual Carriers   iv                              OEI-03-00-00091
       duplicate payments were detected. Upon release of this report, HCFA will proceed with
       recovery actions involving the duplicate payments identified. In response to our second
       recommendation, the HCFA has established a workgroup to analyze potential
       vulnerabilities in existing systems edits. Based upon the workgroup’s findings, HCFA
       will determine appropriate corrective actions to reduce duplicate payments within the
       same carrier. Further, HCFA will consider tasking a program safeguard contractor to
       conduct analysis, identify past instances of duplicate billings within the same carrier, and
       initiate any overpayment recoveries.




Duplicate Medicare Payments by Individual Carriers   v                                OEI-03-00-00091
                             TABLE OF CONTENTS

                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Potential duplicate payments made in 1998 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          One carrier responsible for one-third of potential duplicate services . . . . . . . . . . . . . . . . 5


          Claims processing edits unable to prevent potential duplicate payments . . . . . . . . . . . . . 6


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDICES


          A: Description of 15 Procedure Codes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          B: Description of 55 Evaluation and Management Codes . . . . . . . . . . . . . . . . . . . . . . . . 10


          C: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          D. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13





  Duplicate Medicare Payments by Individual Carriers              vi                                                  OEI-03-00-00091
                                    INTRODUCTION

PURPOSE

        To determine if individual carriers made duplicate payments for the same Medicare
        Part B services.


BACKGROUND

        During the course of a previous inspection entitled “Medicare Payments for the Same
        Service by More Than One Carrier,” (OEI-03-00-00090), we found evidence that not
        only multiple carriers, but the same carriers, were paying for potential duplicate services.
        Accordingly, we decided to conduct a separate review related to this issue. This
        inspection report is a product of that review.

Processing Part B Claims

        The Health Care Financing Administration (HCFA), which administers the Medicare
        program, contracts with private health insurance companies called carriers to process
        most Part B claims for payment. Claims under Medicare Part B include medical and
        surgical services by physicians, ambulance services, outpatient hospital services, and
        laboratory services.

        After Part B services are furnished to a Medicare beneficiary, the provider submits a
        claim for reimbursement to the appropriate Medicare carrier. The carrier enters the claim
        into its processing system, calculates the payment amount, and conducts consistency and
        utilization checks using computerized edits. The carrier then sends the claim to one of
        nine host sites of the Common Working File system. The HCFA established the
        Common Working File system in 1991 to improve the accuracy of claims processing.
        The host sites maintain beneficiary claims history and entitlement information. Each
        beneficiary is assigned to only one host site. At the host site, the claim is screened for
        consistency, entitlement, and duplication of previously processed claims. Within 24
        hours of receiving a claim, the host site makes one of three payment determinations: (1)
        pay the claim, (2) reject the claim, or (3) hold the claim to obtain missing information.

Detecting Duplicate Payments

        As part of Medicare’s guidelines to detect and prevent inappropriate payments, both the
        carriers and the Common Working File system conduct checks on claims to detect
        duplicate payments. According to procedures described in the Medicare Carriers Manual


 Duplicate Medicare Payments by Individual Carriers   1                                OEI-03-00-00091
        regarding the control of potential duplicate payments, as well as information obtained
        from HCFA, carriers automatically disallow claims for duplicate services that match on
        the following fields: start and end dates of service, the beneficiary’s health insurance
        claim number, provider identification number, type of service, procedure code, place of
        service, and submitted charge. As a further check for duplicate services, service dates are
        matched with one or more of the following variables: provider identification number,
        type of service, and procedure code. If these items match, the claim is held for review
        and duplicate payments are denied. Line items within claims are also compared for
        duplicate entries. The Common Working File host sites check for duplicate claims by
        comparing the carrier number, the claim’s document control number, and service dates
        on the Common Working File history record. If these fields are identical on two claims,
        one claim is denied.


METHODOLOGY

        For our previous inspection “Medicare Payments for the Same Service by More Than
        Once Carrier” (OEI-03-00-00090), we examined 1998 Part B paid services for a 5
        percent sample of Medicare beneficiaries in HCFA’s National Claims History file. We
        used six criteria to determine if two services appeared to be duplicate: the beneficiary’s
        health insurance claim number; the unique physician identification number of the
        provider performing the service; the start date of service; HCFA’s Common Procedure
        Coding System code describing the service; and the two modifiers that can further
        describe the service. If the six criteria for two services were identical, we considered
        those services to be potential duplicates. We then identified a universe of services that
        had been billed to more than one carrier from this pool of potentially duplicate services.
        The medical staff of a carrier assisted us in selecting 15 codes that either should only be
        billed once per day by a single provider or that should rarely be billed more than once per
        day. A description of the 15 procedure codes is provided in Appendix A. From these 15
        codes, we selected a random sample of 242 potential duplicate services paid by more than
        one carrier. We contacted the 86 providers who performed the sample services and
        requested medical documentation to justify the billings. None of the documentation
        received justified billings to more than one carrier.

Data Collection and Analysis

        For the current inspection, we focused our analysis on services for the 15 procedure
        codes used in the previous inspection, since these codes should never or rarely be billed
        more than once a day. From the 1998 National Claims History 5 percent file, we
        identified all services for the 15 codes using the same six criteria described above, but
        that were paid by the same carrier. Since the documentation obtained in the earlier study
        did not justify more than one payment for any of the duplicate services, we did not ask
        providers to send medical documentation for this review.



 Duplicate Medicare Payments by Individual Carriers   2                               OEI-03-00-00091
       We later expanded our review to include additional evaluation and management codes.
       According to a carrier’s medical review staff, 55 of 58 evaluation and management codes
       identified as having potential duplicate services should never or rarely be billed more
       than once a day. These 55 codes exclude evaluation and management services contained
       in the 15 procedure codes cited above. We identified all potential duplicate services paid
       by the same carrier for the 55 codes using the same six criteria defined earlier. We did
       not contact the providers of these services for documentation or further clarification of
       their billings. A description of the 55 evaluation and management codes is provided in
       Appendix B.

       In order to illustrate the possible scope of potential duplicate services paid by individual
       Part B carriers, we analyzed the duplicate services for all procedure codes, excluding the
       70 codes mentioned above. Using the six criteria referred to above, we identified
       potentially duplicate services for approximately 2,000 procedure codes. For these codes,
       we neither asked providers for supporting medical documentation nor asked a carrier’s
       medical staff to review these services.

       Based on the results of the previous inspection, we presumed that, within a set of
       duplicate services, one service was appropriate and the related duplicate service(s) was
       not. For monetary calculations, we determined questionable payments from the
       service(s) with the lowest allowed amounts.

       For the potential duplicate services, we identified the carriers that were responsible for
       making the payments. We also applied the edit criteria used by carriers and the Common
       Working File system to determine if the potential duplicate services we identified should
       have been detected by Medicare’s claims processing systems.

       With respect to the 15 original procedure codes and 55 evaluation and management codes
       referred to above, it is unlikely that duplicate services for many of these codes were
       appropriately billed, in view of the results of our previous inspection and the advice of a
       carrier’s medical review staff which indicated these services should never or rarely be
       billed more than once a day. However, we are less certain about the potentially duplicate
       services involving the other 2,000 codes, as we neither analyzed these codes in the earlier
       report nor checked their appropriateness with a carrier’s medical review staff. In the
       final analysis, each duplicate service will have to be investigated to determine its validity.
                                             __________

       This study was conducted in accordance with the Quality Standards for Inspections
       issued by the President’s Council on Integrity and Efficiency.




Duplicate Medicare Payments by Individual Carriers   3                                 OEI-03-00-00091
                                                 FINDINGS

Medicare carriers made potential duplicate payments in 1998
Medicare allowed an estimated $2.25 million in potential duplicate payments for
15 codes

        In our sample, individual carriers made duplicate payments involving 3,152 services for
        15 procedure codes. These codes should never or rarely be billed more than once per
        day. Using the lowest allowed amounts for each duplicate service, questionable
        allowances equaled approximately $112,000. Based on this, we estimate that Medicare
        made a total of $2.25 million in duplicate payments for the 15 codes in 1998. See
        Appendix C for estimates and confidence intervals.

        As shown in Table 1, questionable allowances for each code ranged from approximately
        $800 for spinal canal magnetic resonance imaging (72158) to more than $28,000 for
        subsequent hospital care per day (99232).

        Table 1. Questionable Allowances and Services Involving Duplication for 15 Codes
          Procedure Code             Amount of Questionable Allowances   Number of Services Involving Duplication
              99232                             $28,119.80                                  719
              99213                             $26,849.81                                1,439
              66984                             $14,304.78                                   77
              90921                              $7,893.87                                   75
              99254                              $5,735.81                                   95
              99223                              $5,646.48                                   83
              70553                              $4,956.45                                   38
              90862                              $3,516.41                                  179
              99238                              $3,120.49                                  103
              90801                              $2,971.26                                   52
              99204                              $2,546.38                                   62
              99244                              $2,508.24                                   54
              11721                              $2,319.00                                  124
              90816                              $1,193.52                                   50
              72158                                $818.88                                    2
               TOTAL                             $112,501.18                              3,152
        Source: 1998 National Claims History 5 percent file


        The duplicate services for the 15 procedure codes consisted of services that, according to
        claims data in the 5 percent claims file, were billed to and paid by the same carrier at
        least twice. We found examples in which a carrier paid for the same service more than
        two times. For example, we found 22 different instances in which a carrier paid for the
        same service three times. One carrier paid a physician for six subsequent hospital visits


 Duplicate Medicare Payments by Individual Carriers            4                                     OEI-03-00-00091
        on the same day for the same beneficiary. Another carrier paid a provider ten times for
        the debridement of six or more nails for one beneficiary on the same day.

Medicare allowed an estimated $2.2 million in potential duplicate payments for 55
evaluation and management codes

        We reviewed an additional 58 evaluation and management codes that had potential
        duplicate services in 1998. Of these 58 codes, a carrier’s medical staff stated that 55
        should never or rarely be billed more than once per day. We estimate that Medicare
        made an additional $2.2 million in duplicate payments for these 55 evaluation and
        management codes in 1998. The 55 procedure codes include services such as subsequent
        nursing facility care per day (99312), critical care evaluation and management--first hour
        (99291), and follow-up inpatient consultation for an established patient (99262).

Potential duplicate payments were found for other procedure codes

        In order to illustrate the possible extent of potential duplicate services paid by individual
        Part B carriers, we also identified duplicate services for all procedure codes besides the
        70 codes mentioned previously. We estimate that Medicare made $89 million in
        potential duplicate payments for these procedure codes.

        The potential duplicate payments comprised nearly 2,000 procedure codes. The types of
        services represented by the codes that occurred most frequently included laboratory and
        pathology tests, vascular diagnostic tests, physical medicine and rehabilitative services,
        and ambulance services. It is possible that some of the duplicate services that we
        identified may have been appropriately billed, as we did not investigate their validity.
        However, the definitions for certain services suggest a provider would never or rarely
        furnish a beneficiary with more than one of these services on the same day. For example,
        procedure code 90925 is defined as end stage renal disease related services per day.


One carrier paid for more than one-third of the potential
duplicate services
        One carrier accounted for 37 percent of the duplicate services for the 15 procedure codes
        in 1998. However, this carrier accounted for only 4 percent of all Part B services in
        1998. This carrier paid for 1,180 of the 3,152 duplicate services, more than four times
        the number for the next highest carrier (253). Almost all carriers (92 percent) made
        payments for duplicate services involving the 15 procedure codes in 1998. Seventeen
        carriers paid for more than 50 potentially duplicate services for the 15 procedure codes,
        while 5 carriers made only 2 duplicate payments. Table 2 shows the five carriers with
        the highest number of duplicate services involving the 15 procedure codes.



 Duplicate Medicare Payments by Individual Carriers   5                                  OEI-03-00-00091
        Table 2. Number of Services Involving Duplication for Top Five Carriers
               Carrier                    Number of Services Involving              Percent of
                                        Duplication for 15 Procedure Codes   Total Duplicate Services
                  1                                    1,180                          37%
                  2                                      253                           8%
                  3                                      129                           4%
                  4                                      128                           4%
                  5                                       97                           3%
        Source: 1998 National Claims History 5 percent file


        The carrier accounting for 37 percent of the duplicate services for the 15 procedure codes
        in 1998 also had the highest number of potential duplicate services involving the 55
        additional evaluation and management codes reviewed. This carrier paid for one-third of
        the services for these evaluation and management codes.


Carrier and Common Working File edits did not prevent
potential duplicate payments
Carrier edits

        Forty percent of the duplicate services for the 15 procedure codes should have been
        disallowed, based on carrier edits. At the carrier level, claims for duplicate services that
        match on the following eight fields are disallowed: start and end dates of service,
        beneficiary’s health insurance claim number, provider identification number, type of
        service, procedure code, place of service, and submitted charge. In examining these eight
        fields for the selected duplicate services, we found that they were identical for 40 percent
        of the duplicate services. According to the Medicare Carriers Manual, these duplicate
        services should have been disallowed without clerical intervention.

        Of the remaining duplicate services for which the eight fields were not identical, 79
        percent had non-matching provider identification numbers. While providers have only
        one unique physician identification number, they may have more than one provider
        identification number, which is a billing number assigned by carriers to designate
        separate practice locations or accounting designations. Carrier computer edits cannot
        detect duplicate services if the provider identification numbers are different. Therefore,
        the non-matching provider identification numbers may have allowed these duplicate
        payments to go undetected.

Common Working File edits

        Eight percent of the duplicate services for the 15 procedure codes should have been
        denied, based on Common Working File edits. At the host sites, if four fields — the
        carrier number, the claim’s document control number, and the start and end dates of


 Duplicate Medicare Payments by Individual Carriers            6                             OEI-03-00-00091
       service — on two claims are identical, one claim should be denied. In examining these
       four fields for our selected duplicate services, we found that they were identical for 8
       percent of the duplicate services.

       Of the remaining duplicate services for which the four fields were not identical, almost
       all had non-matching document control numbers. A unique document control number is
       assigned by the carrier to each claim that a provider submits. The Common Working File
       edit is designed to detect duplicate services based, in part, on comparing the document
       control numbers. The high percentage of duplicate services with different document
       control numbers may explain how they evaded detection at the Common Working File
       level.




Duplicate Medicare Payments by Individual Carriers   7                              OEI-03-00-00091
                               RECOMMENDATIONS

This inspection, combined with our previous inspection report (OEI-03-00-00090) on duplicate
payments by more than one carrier, establishes that some claims for potential duplicate services
are not being detected by Medicare carriers and the program’s Common Working File systems.

To address the vulnerabilities identified in this report, we recommend that HCFA:

<	          investigate Medicare’s claims processing systems to determine why potential
            duplicate services were not detected. Payments should be recovered for those
            services determined to be inappropriate.

<	          implement corrective edits or related measures within carrier and Common
            Working File claims processing systems to detect and prevent payments for
            duplicate services billed to the same carrier. If these measures are determined not
            to be cost effective, then conduct additional post-payment reviews, particularly for
            those carriers in which high numbers of duplicate payments were detected.

We have forwarded claims information to HCFA so they may take appropriate action regarding
the possible duplicate payments cited in this report.


AGENCY COMMENTS

            The HCFA concurred with our recommendations. In response to our first
            recommendation, the HCFA stated that they will continue to assess existing duplicate
            payment edits in the Common Working File as well as the Medicare Part B standard
            claims processing systems. The HCFA also plans to reexamine existing edits involved
            with preventing payments for duplicate services in individual carrier systems. Part of this
            examination will include an assessment of those carriers in which a high number of
            duplicate payments were detected. Upon release of this report, HCFA will proceed with
            recovery actions involving the duplicate payments identified. In response to our second
            recommendation, the HCFA has established a workgroup to analyze potential
            vulnerabilities in existing systems edits. Based upon the workgroup’s findings, HCFA
            will determine appropriate corrective actions to reduce duplicate payments within the
            same carrier. Further, HCFA will consider tasking a program safeguard contractor to
            conduct analysis, identify past instances of duplicate billings within the same carrier, and
            initiate any overpayment recoveries.




     Duplicate Medicare Payments by Individual Carriers   8                               OEI-03-00-00091
                                                                                       APPENDIX A

                           Description of 15 Procedure Codes
The following is a list of the 15 procedure codes selected for our primary analysis, as well as a
description of the codes.


 Procedure Code                                             Description of Code*
      11721           Debridement of six or more nails by any method
      66984           Extracapsular cataract removal with insertion of intraocular lens prostheses
      70553           Brain magnetic resonance imaging without contrast material
      72158           Magnetic resonance imaging, spinal canal and contents, without contrast material, lumbar
      90801           Psychiatric diagnostic interview examination
      90816           Individual psychotherapy, 20-30 minutes, inpatient setting
      90862           Pharmacologic management
      90921           End stage renal disease related services per full month, for patients 20 years of age or older
      99204           Office or other outpatient visit for evaluation and management of new patient
      99213           Office or other outpatient visit for evaluation and management of established patient
      99223           Initial hospital care, per day, for evaluation and management of patient
      99232           Subsequent hospital care, per day, for evaluation and management of patient
      99238           Hospital discharge day management, 30 minutes or less
      99244           Office consultation for new or established patient
      99254           Initial inpatient consultation for new or established patient
* Source: 1998 Physician’s Current Procedural Terminology




  Duplicate Medicare Payments by Individual Carriers         9                                          OEI-03-00-00091
                                                                                    APPENDIX B

        Description of 55 Evaluation and Management Codes
The following is a list of the 55 evaluation and management codes selected for analysis, as well
as a description of the codes.

 Procedure Code                                              Description of Code*
      99201           Office or other outpatient visit, new patient
      99202           Office or other outpatient visit, new patient
      99203           Office or other outpatient visit, new patient
      99205           Office or other outpatient visit, new patient
      99211           Office or other outpatient visit, established patient
      99212           Office or other outpatient visit, established patient
      99214           Office or other outpatient visit, established patient
      99215           Office or other outpatient visit, established patient
      99217           Observation care discharge day management
      99219           Initial observation care, per day
      99220           Initial observation care, per day
      99221           Initial hospital care, per day
      99222           Initial hospital care, per day
      99231           Subsequent hospital care, per day
      99233           Subsequent hospital care, per day
      99235           Observation or inpatient hospital care
      99236           Observation or inpatient hospital care
      99239           Hospital discharge day management, more than 30 minutes
      99241           Office consultation, new or established patient
      99242           Office consultation, new or established patient
      99243           Office consultation, new or established patient
      99245           Office consultation, new or established patient
      99251           Initial inpatient consultation, new or established patient
      99252           Initial inpatient consultation, new or established patient
      99253           Initial inpatient consultation, new or established patient
      99255           Initial inpatient consultation, new or established patient



  Duplicate Medicare Payments by Individual Carriers        10                            OEI-03-00-00091
                                                                                    APPENDIX B
  Description of 55 Evaluation and Management Codes (cont.)


 Procedure Code                                              Description of Code*
      99261           Follow-up inpatient consultation, established patient
      99262           Follow-up inpatient consultation, established patient
      99263           Follow-up inpatient consultation, established patient
      99274           Confirmatory consultation, new or established patient
      99275           Confirmatory consultation, new or established patient
      99281           Emergency department visit
      99282           Emergency department visit
      99283           Emergency department visit
      99284           Emergency department visit
      99285           Emergency department visit
      99291           Critical care evaluation and management, first hour
      99301           Nursing facility assessment, new or established patient
      99302           Nursing facility assessment, new or established patient
      99303           Nursing facility assessment, new or established patient
      99311           Subsequent nursing facility care, per day
      99312           Subsequent nursing facility care, per day
      99313           Subsequent nursing facility care, per day
      99315           Nursing facility discharge day management, 30 minutes or less
      99332           Rest home visit, established patient
      99341           Home visit, new patient
      99342           Home visit, new patient
      99343           Home visit, new patient
      99347           Home visit, established patient
      99348           Home visit, established patient
      99349           Home visit, established patient
      99350           Home visit, established patient
      99354           Prolonged physician service, office setting, first hour
      99356           Prolonged physician service, inpatient setting, first hour
      99375           Physician care plan oversight services, 30 minutes or more
* Source: 1998 Physician’s Current Procedural Terminology



  Duplicate Medicare Payments by Individual Carriers         11                           OEI-03-00-00091
                                                                             APPENDIX C

                          Estimates and Confidence Intervals

The tables below contain statistical estimates presented in the findings section of this report.
The point estimates and corresponding 95 percent confidence intervals, based on a 5 percent
sample of HCFA’s 1998 National Claims History file, were computed using standard statistical
formulas for a simple random sample.


                                                            Point Estimate   95% Confidence Interval
 Questionable Medicare Allowances
                                                             $2,250,024       $2,067,454 - $2,432,593
 for 15 Original Codes




                                                            Point Estimate   95% Confidence Interval
 Questionable Medicare Allowances
                                                             $2,205,158       $2,091,705 - $2,318,610
 for 55 Evaluation and Management Codes




                                                            Point Estimate   95% Confidence Interval
 Questionable Medicare Allowances for All
 Services Except Ones Involving 15 Original
                                                             $89,658,205     $87,611,633 - $91,704,777
 Codes and 55 Evaluation and Management
 Codes (Represents 1,906 Codes)




  Duplicate Medicare Payments by Individual Carriers   12                                 OEI-03-00-00091
                                                          APPENDIX D

          Health Care Financing Administration Comments





Duplicate Medicare Payments by Individual Carriers   13         OEI-03-00-00091
a                                                             APPENDIX D




    Duplicate Medicare Payments by Individual Carriers   14         OEI-03-00-00091
                                                          APPENDIX D




Duplicate Medicare Payments by Individual Carriers   15         OEI-03-00-00091
